September 1, 2012

The Honorable Darrell E. Issa
Chairman
U.S. House of Representatives
Committee on Oversight and Government Reform
2157 Rayburn House Office Building
Washington, D.C. 20515

Dear Chairman Issa:

Thank you for your letter of August 3, 2012, requesting that the U.S. Government
Printing Office, (GPO) Office of Inspector General (OIG) provide information regarding
Section 5(d) of the Inspector General Act which requires the inspectors general to report
particularly flagrant problems to Congress through the agency head within seven days,
known as the seven-day letter. Your letter seeks a written response to three questions,
which we address in turn below.

Question 1: Since January 1, 2009, have you issued any seven-day letters? If yes,
please describe the matters involved.

Response: No.

Question 2: Since January 1, 2009, have there been any serious or flagrant problems
at your agency that were not reported to Congress? If yes, please describe the matters
and explain why Congress was not informed.

Response: Not to our knowledge. Although the OIG aspires to discover, or otherwise
have all serious or flagrant problems at the GPO brought to its attention, the OIG cannot
guarantee that it has become aware of all such problems. However, we can assure you
that all such problems to which we became aware since January 1, 2009, have been
reported to Congress.

Question 3: Please explain what you and your staff understand section 4(a)(5) of the IG
Act to require.

   Response: We view section 4(a)(5) to be a critically important provision in that it
   establishes the dual reporting concept unique to Offices of Inspectors General.
   Pursuant to section 4(a)(5), as applied to the U.S. GPO–OIG under 44 U.S.C. §§
   3901 – 3903, the OIG is responsible to keep both the Public Printer and Congress
   “fully and currently informed . . . concerning fraud and other serious problems,
   abuses, and deficiencies relating to” GPO programs and operations. The OIG fulfills
The Honorable Darrell Issa, Chairman
House Committee on Oversight and Government Reform
September 1, 2012
Page 2 of 3

   this important obligation to Congress through various means and extensive efforts.
   The OIG takes an active approach toward its obligation to inform Congress and
   strives to maintain strong working relationships with cognizant committees.

The OIG takes numerous steps to ensure Congress is fully and currently informed,
including:

   •   Providing briefings to the leadership and staff of committees with jurisdiction
       concerning particular allegations or concerns with fraud and other serious
       problems, abuses, and deficiencies relating to GPO programs and operations.

   •   Meeting with staff of committees with jurisdiction, to inform them of the OIG’s
       strategic plan, annual work plan, results of work completed, and underway by the
       OIG, as well as to listen to the viewpoints and concerns of those individuals
       regarding GPO programs and operations and incorporate those viewpoints into
       plans.

   •   As reports are issued, the OIG posts audit, inspection, and management
       implication reports to the OIG website generally within three days.

   •   Responding promptly to varied requests by Committees and Members for
       information.

   •   The OIG, as required in section 5 of the Inspector General Act, issues
       semiannual reports to Congress The OIG, not later than April 30 and October 31
       of each year, prepares a semiannual report summarizing the activities of the OIG
       during the immediately preceding six-month periods ending March 31 and
       September 30. The report includes a description of significant problems, abuses,
       and deficiencies relating to the administration of programs and operations during
       the reporting period. The OIG also includes information concerning any
       significant management decision with which the Inspector General is in
       disagreement.

   •   The OIG reports management challenges that the OIG independently identifies,
       monitors, and updates to Congress.

The OIG is instrumental in enhancing government accountability through the results of
independent audits, investigations, and other reports on GPO programs and operations.
Our work is viewed as impartial by both GPO managers and our congressional
oversight. We strive to effectively carry out our mission to help prevent and detect
fraud, waste, abuse, and promote economy, efficiency, and effectiveness.
The Honorable Darrell Issa, Chairman
House Committee on Oversight and Government Reform
September 1, 2012
Page 3 of 3


We appreciate the oversight of the Committee and welcome the opportunity to provide
you with any additional clarification you may need as to the manner in which the OIG
informs Congress. We also value the relationships that we have established with
committees that oversee our office and the GPO. These relationships underpin the
OIG’s steadfast efforts to ensure that Congress is fully and currently informed. We
strive to maintain and strengthen our communication between the OIG and Congress to
ensure it is open, ongoing, and transparent.

Should you need any other information, please do not hesitate to contact me at
mraponi@gpo.gov or at 202-512-0039.


Respectfully submitted,




Michael A. Raponi
Inspector General

cc:   The Honorable Elijah E. Cummings, Ranking Minority Member
